No.
IN THE SUPREME COURT OF THE UNITED STATES

MARCUS HANSERD
Petitioner,
V

TONY TRIERWEILER,
Respondent.

ON PETITION FOR WRIT OF CERTIORARI
TO THE SIXTH CIRCUIT COURT OF APPEALS

PETITION FOR WRIT OF CERTIORARI

By:

,5

O'

Marcus Hanserd #440115
Petitioner in Pro Se
1727 W. Bluewater Hwy.
Ionia, Michigan 48846

QUESTION(S) PRESENTED FOR REVIEW
I.

IS THERE A CONFLICT AMONG THE CIRCUITS AS TO THE PROPER
STANDARD OF REVIEW FOR FEDERAL RULES CIVIL PROCEDURE
RULE 15(C), RELATE BACK PROVISION; DOES PETITIONER'S
INEFFECTIVE ASSISTANCE OF COUNSEL CLAIM RELATE BACK TO
HIS ORIGINAL TIMELY FILED PETITION AND DID THE SIXTH
CIRCUIT COURT OF APPEALS FAIL TO CONDUCT A PROPER
REVIEW OF THE RECORD TO DETERMINE WHETHER THE CLAIM
SHARES A COMMON CORE OF OPERATIVE FACTS PRIOR TO
DISMISSING THE CLAIM AS UNTIMELY?
Petitioner answers "YES"
Respondent answers "No"

S

1

LIST OF PARTIES
All parties appear in the caption of the case on the coverpage.

A

A*

TABLE OF CONTENTS
QUESTIONS PRESENTED

1

LIST OF PARTIES.............

n

TABLE OF AUTHORITIES

,iv

REFERENCE TO OPINIONS

,v

JURISDICTIONAL STATEMENT

vi

CONSTITUTIONAL PROVISIONS

,V11

STATEMENT OF CASE

1

SUMMARY OF ARGUMENT
I.

THERE IS A CONFLICT AMONG THE CIRCUITS AS TO THE PROPER
STANDARD OF REVIEW WHEN DETERMINING FEDERAL RULES OF
CIVIL PROCEDURE RULE 15(C)'S RELATE BACK PROVISION;
PETITIONER'S INEFFECTIVE ASSISTANCE OF COUNSEL CLAIM
RELATES BACK TO HIS ORIGINAL TIMELY FILED PETITION AND
THE SIXTH CIRCUIT COURT OF APPEALS FAILED TO CONDUCT A
PROPER REVIEW OF THE RECORD TO DETERMINE WHETHER
THE CLAIM SHARES A COMMON CORE OF OPERATIVE FACTS
PRIOR TO DISMISSING THE CLAIM AS UNTIMELY.................................

7

CONCLUSION

16

RELIEF

19

APPENDIX
Appendix A -HANSERD v TRIERWEILER, 2020 U.S. App. Lexis 5743; Case No. 18-2404
Appendix B - HANSERD v TRIERWEILER, 2020 U.S. App. Lexis 17406; Case No. 18-2404
Appendix C - HANSERD v TRIERWEILER, 2018 U.S. Dist. Lexis 185159; Case No. 16-cv-11099
Appendix D - PEOPLE v HANSERD, 2012 Mich App Lexis 1734

in

TABLE OF AUTHORITIES
Cases
Conley v Gibson, 355 U.S. 41, 47; 78 S. Ct. 99; 2 L. Ed. 2d 80 (1957)..................
11
Cowan v Stovall, 645 F. 3d 815 (2011)...................;........................................ ......
15, 16
Davenport v United States, 217 F. 3d 1341, 1343 n. 4 (11th Cir. 2000)..................
9
Dodd v United States, 614 F. 3d 512 (8th Cir. 2010)...............................................
9
Hill v Mitchell, 842 F. 3d 910 (6th Cir. 2016).........................................................
9
Hodge v United States, 554 F. 3d 372 (3rd Cir. 2009).............................................
8
Moyle v Felix, 545 U.S. 644, 664-665; 125 S. Ct. 2562; 162 L. Ed. 2d 582 (2005)
12, 14
Parry v Mohawk Motors of Michigan, Inc. 236 F. 3d 299, 305 (6th Cir. 2001)......
9
People v Anderson, 389 Mich 155; 205 NW2d 461 (1983)....................................
2
People v Cooper, 236 Mich 543, '358: 601 NW2d 409 (1999)...............................
3
People v Davis, 241 Mich App 697; 617 NW2d 381 (2000)...................................
2
People v Hardiman, 466 Mich 417; 646 NW2d 158 (2002)...................................
2
People v Hickman, 470 Mich 602; 684 NW2d 267 (2004).....................................
2
People v McGhee, 268 Mich App 600; 709 NW2d 595 (2005)...............................
3
People v Tanner, 469 Mich 437; 671 NW2d 728 (2003).........................................
2
People v Whitfield, 214 Mich App 348; 543 NW2d 347 (1995).............................
3
People v Wolfe, 440 Mich 508; 489 NW2d 748 (1992)...........................................
2
Sumpter v Bowersox, 2017 U.S. Dist. Lexis 203099...............................................
9
Tiller v Atlantic Coast Line R. Co., 323 U.S. 574, 580-581; 65 S. Ct. 421; 89 L. Ed. 465 (1945)15
United States v Hicks, 283 F. 3d 380, 388 (2002).......................
14
United States v Marulanda, 226 Fed. Appx. 706 (9th Cir. 2007)
8
United States v Roe, 913 F. 3d 1285, 1298 (10th Cir. 2019).......
8
Statutes
28 U.S.C. § 1257........................................................................
28 U.S.C. § 2242........................................................................
28 U.S.C. § 2243........................................................................
Mich. Comp. Law § 750.224f....................................................
Mich. Comp. Law § 750.226.....................................................
Mich. Comp. Law § 750.227b....................................................
Mich. Comp. Law § 750.316......................................................
Mich. Comp. Law § 750.529a....................................................
Mich. Comp. Law § 769.10........................................................
Other Authorities
U.S. Const. Amend. VI..............................................................
U.S. Const. Amend. XIV...........................................................
Rules
Fed. R. Civ. Proc. 8....................................................................
Fed. R. Civ. Proc. 15..................................................................
Fed. R. Civ. Proc. 81..................................................................
Habeas Corpus Rule 12..............................................................
Habeas Corpus Rule 4................................................................
IV

Vll

8
9
1
1
1
1
1
1
vm
Vlll

8
8, 9, 10, 12
7
7,8

8,9

i

?■

REFERENCE TO OPINIONS
The February 2, 2020, United States Court of Appeals Opinion appears at Appendix A to
the Petition and is reported at HANSERD v TRIERWEILER, 2020 U.S. App. Lexis 5743; Case No.
18-2404
The June 2, 2020, United States Court of Appeals Opinion denying a rehearing appears at
Appendix B to the Petition and is reported at HANSERD v TRIERWEILER, 2020 U.S. App. Lexis
5743; Case No. 18-2404
The October 30, 2018, United States District Court Opinion appears at Appendix C to the
Petition and is reported at HANSERD v TRIERWEILER, 2018 U.S. Dist. Lexis 185159; Case No.
16-CV-11099.
The September 11, 2012, Michigan Court of Appeals Opinion appears at Appendix D to
the Petition and is reported at PEOPLE V HANSERD, 2012 Mich App Lexis 1734.

v

STATEMENT OF JURISDICTION
Petitioner seeks review of the February 25, 2020 judgment of the Sixth Circuit Court of
Appeals, HANSERD v TRIERWEILER, 2020 U.S. App. Lexis 5743; Case No. 18-2404.
A Petition for Rehearing was filed in this case, and on June 2, 2020, the Court of Appeals
denied the request for rehearing. HANSERD v TRIERWEILER, 2020 U.S. App. Lexis 17406;
Case No. 18-2404.
Jurisdiction of this Court is invoked under 28 U.S.C. § 1254.

vi

CONSTITUTIONAL PROVISIONS
U.S. Const. Amend. VI
In all criminal prosecutions, the accused shall enjoy the right to a speedy and public trial,
by an impartial jury of the State and District wherein the crime shall have been committed,
which District shall have been previously ascertained by law, and to be informed of the nature
and cause of the accusation; to be confronted with the witnesses against him; to have compulsory
process for obtaining witnesses in his favor, and to have the assistance of counsel for his defense.
U.S. Const. Amend. XIV § 1
All persons bom or naturalized in the United States, and subject to the jurisdiction
thereof, are citizens of the United States and of the State wherein they reside. No State shall
make or enforce any law which shall abridge the privileges or immunities of citizens of the
United States; nor shall any State deprive any person of life, liberty, or property, without due
process of law; nor deny to any person within its jurisdiction the equal protection of the laws.

Vll

STATEMENT OF CASE
A jury convicted Petitioner of first-degree murder, Mich. Comp. Law § 750.316(l)(a);
carjacking, Mich. Comp. Law § 750.529a;, felon in possession of a weapon, Mich. Comp. Law §
750.224f; carrying a dangerous weapon with unlawful intent, Mich. Comp. Law § 750.226; and,
four counts of possession of a firearm during the commission of a felony, Mich. Comp. Law §
750.227b. Petitioner was sentenced as a second-offense habitual offender, Mich. Comp. Law §
769.10, to concurrent terms of life for first-degree murder, 356 to 480 months for carjacking, 47
to 90 months for felon in possession of a firearm, and 47 to 90 months for carrying a dangerous
weapon with unlawful Intent. Petitioner also received a consecutive two-year prison term for each
count of felony-firearm, to be served concurrently to each other.
Petitioner timely filed an appeal of right in the Michigan Court of Appeals and the
conviction and sentence were affirmed in an unpublished opinion on September 11, 2012. People
v Hanserd, 2012 Mich App Lexis 1734; Appendix C. Petitioner timely filed an application for
leave to appeal in the Michigan Supreme Court who declined to grant leave to appeal. People v
Hanserd, 493 Mich 952; 828 NW2d 45 (2013).
Petitioner's Direct Appeal
On direct appeal Petitioner argued that there was insufficient evidence presented to
establish his identity as the shooter. Specifically, Defendant argued that there were a number of
inconsistencies between the identifying witness's testimony and her previous statements to police
which render her identification of defendant unreliable. Defendant also argued that there were
inconsistencies between various witnesses' testimony, further adding to the unreliability of the
identification.

1

When making a ruling on the sufficiency of evidence claim, the Michigan Court of
Appeals held:
... all problems that defendant points out with the identification are
credibility and weight issues, which are determinations to be made by the
jury. Davis, 241 Mich App at 700; 1 Hardiman, 465 Mich at 428.2 We
will not interfere with the jury's role in determining credibility. Wolfe,,
440 Mich at 514.3 When looking at the testimony in a light most
favorable to the prosecution, a jury could have reasonably determined
that defendant was the shooter. Defendant was identified as the shooter
both in court and in a physical lineup before trial. An identification by a
witness is sufficient evidence to support a conviction. Davis, 241 Mich
App at 700.
People v Hanserd, 2012 Mich App Lexis 1734, at * 4; Appendix C.
Petitioner also argued on direct appeal that the trial court abused its discretion when it
failed to grant Petitioner's motion to hire an expert witness in identification to explain problems
associated with eyewitness identification.
When making a ruling on the sufficiency of evidence claim, the Michigan Court of
Appeals held:
The trial court is not required to provide an indigent defendant with
funds for an expert witness. Tanner, 469 Mich 442.4 Instead, an expert
must be provided for when the indigent defendant can demonstrate a
nexus between the facts of the case and the need for an expert." Id. at
443 (internal quotation marks and citation omitted). The defendant must
also demonstrate that he cannot safely proceed to trial absent the expert.
Id. at 443-444.
Defendant goes through a lengthy analysis of People v Anderson, 389
Mich 155; 205 NW2d 461 (1983), overruled on other grounds in People
v Hickman, 470 Mich 602; 684 NW2d 267 (2004), as well as
psychological studies and cases discussing the problems with eyewitness
identification.
However, nowhere in Anderson or current case law is there a holding
that eyewitness identifications are inherently unreliable. Defendant does
not cite nor is there any current case that forbids the use of eyewitness
1 People v Davis, 241 Mich App 697; 617 NW2d 381 (2000).
2 People v Hardiman, 466 Mich 417; 646 NW2d 158 (2002).
3 People v Wolfe, 440 Mich 508; 489 NW2d 748 (1992).
4 People v Tanner, 469 Mich 437; 671 NW2d 728 (2003).

2

identification. Again, the jury is responsible for determining the
credibility of eyewitness identification. Davis. 241 Mich App at 700.
People v Hanserd, 2012 Mich App Lexis 1734, at * 8; Appendix C.
Petitioner also alleged on direct appeal that the unreliability of eyewitness identification
made an expert necessary for proper investigation and trial testimony. Petitioner further alleged
that the line-up procedures used in this case were impermissible and suggestive, and that an
expert was necessary to explain the effects of a tainted lineup on identification.
When making a ruling on the sufficiency of evidence claim, the Michigan Court of
Appeals held:
. . . defendant did not object to the lineup procedure when it occurred,
nor did defendant object to the in-court identification. Furthermore, the
record does not reflect procedures that were impermissibly suggestive.
We will not review identification issues on appeal if not raised before the
trial court, People v Whitfield, 214 Mich App 348; 543 NW2d 347
(1995). Moreover, defendant has not demonstrated that he could not
safely proceed to trial absent an expert. Tanner, 469 at 443-444. In
People v Cooper, 236 Mich 543, '358: 601 NW2d 409 (1999), this Court
noted that it would be obvious to jurors that memories and perceptions of
an eyewitness are sometimes inaccurate. Defense counsel extensively
cross-examined each witness and raised the inconsistencies in testimony
that defendant points to on appeal. The issues of identification raised by
defendant were questions of credibility properly left to the determination
of the jury. Davis 241 Mich at 700. The trial court did not abuse its
discretion in denying defendant's request for an appointed expert. Tanner
469 Mich at 442.
People v Hanserd, 2012 Mich App Lexis 1734, at * 9-10; Appendix C.
Petitioner also alleged on direct appeal that he was denied a fair trial when the trial court
denied his request for a special jury instruction on eyewitness identification.
When making a ruling on the sufficiency of evidence claim, the Michigan Court of
Appeals held:
Defendant's proposed instruction was not a proper recitation of the
applicable law. McGhee 268 Mich App at 606. It recapped commentary
People v McGhee, 268 Mich App 600; 709 NW2d 595 (2005).

3

in Anderson about the problems inherent in eyewitness testimony.
However, as discussed above, nowhere in Anderson or current case law
was there a holding that eyewitness identifications are inherently
unreliable. Defendant's proposed instruction skewed Anderson and
would likely have confused the jury. Defendant's proposed instruction
was better suited as a possible defense argument rather than as an
instruction for the jury. The instructions given by the trial court
adequately protected defendant's rights. The jury had adequate
instruction to be able to determine what weight and credibility to give the
identification evidence, and the trial court did not abuse its discretion in
declining to give the proposed instruction.
People v Hanserd, 2012 Mich App Lexis 1734, at * 15; Appendix C.
The Michigan Court of Appeals clearly recognized in their opinion that, "Defendant
maintains that the prosecution's whole case was built around the eyewitness's testimony . . ."
People v Hanserd, 2012 Mich App Lexis 1734, at * 18; Appendix C.
Petitioner filed a post-conviction motion for relief from judgment in the trial court which
was denied. Petitioner appealed the trial court's order denying relief by filing an application for
leave to appeal, and on December 11, 2014, the Michigan Court of Appeals denied relief. The
Court of Appeals also denied Petitioner's request for remand. People v Hanserd, 2014 Mich App
Lexis 2960; COA Dkt. No. 322993.

Petitioner timely filed an application for leave to appeal in

the Michigan Supreme Court and on December 22, 2015 the Supreme Court denied relief. The
Supreme Court also denied Petitioner's request for remand. People v Hanserd, 498 Mich 947; 872
NW2d 435 (2015).
On March 18, 2016, Petitioner filed his original § 2254 petition by placing it in the prison
mail system. His original petition raised four grounds for relief—namely, that (1) there was
insufficient evidence to support his convictions; (2) the trial court deprived him of a fair trial and
his due process rights through improper evidentiary rulings, through instructional errors, and by
denying funds for an expert witness to opine on eyewitness identification; (3) his trial counsel was
ineffective for failing to call witnesses to establish his innocence; and (4) the evidence was
4

insufficient to convict him because the medical examiner testified that the autopsy showed that the
crime could not have been committed in the manner that an eyewitness claimed. On or round
November 2, 2016, Petitioner filed an amended petition in which he claimed that his trial counsel
was ineffective for failing to object and file a motion to suppress eyewitness Dawn Leuder's in­
court identification.
On October 30, 2018, the Federal District Court issued an opinion and order (1) denying
petition for a writ of habeas corpus (ECF #1), and the amended petition (ECF #11), (2) declining
to issue a certificate of appealability, and (3) granting leave to appeal in forma pauperis.
HANSERD v TRIERWEILER, 2018 U.S. Dist. Lexis 185159; Case No. 16-cv-11099. See, Appendix B
Petitioner timely sought review in the United States Court of Appeals for the Sixth Circuit,
and that Court granted a certificate of appealability as to one of the five claims raised in the district
court. The Sixth Circuit granted the certificate of appealability on the ineffective assistance of
counsel claim raised in Petitioner's amended petition.
On appeal, Petitioner presented his ineffective-assistance claim, and also argued that the
district court (1) incorrectly found that his ineffective-assistance claim alleged that his trial
counsel neglected to challenge Leuder's preliminary examination identification instead of her in­
court identification, and (2) that the Court should have held an evidentiary hearing. The
Respondent argued that Petitioner is not entitled to habeas relief because his ineffective-assistance
claim is time-barred, is procedurally defaulted, and lacks merit. Petitioner claimed that his
ineffective-assistance claim is timely because his original petition - filed before the statute of
limitations expired - claimed that "the state failed to give [him] funds to appoint an expert in the
field of eyewitness identification; challenged the sufficiency of the evidence; " and therefore
relates back to the claim(s) raised in the original timely petition.

5

The Sixth Circuit Court of Appeals held that Petitioner's amended petition lacks a "common
core of operative facts," with the claims raised in his timely original petition. See, February 25,
2020 Opinion/Order, pg. 4. The Court of Appeals further held:
we find that the ineffective-assistance claim raised in Hanserd's amended
petition is barred by the statute of limitations. And because Hanserd's
ineffective-assistance claim is time-barred, we need not address either
the merits of the claim or the warden's argument that the claim is
procedurally defaulted.
HANSERD v TRIER WEILER, 2020 U.S. App. Lexis 5743; Case No. 18-2404, at *6.
Petitioner submitted a Petition for Rehearing, and on June 2, 2020, the request for rehearing
was denied. The Court indicated:
The court received a petition for rehearing en banc. The original panel
has reviewed the petition for rehearing and concludes that the issues
raised in the petition were fully considered upon the original submission
and decision of the case. The petition was circulated to the full court.
No judge has requested a vote on the suggestion for rehearing en banc.
HANSERD v TRIER WEILER, 2020 U.S. App. Lexis 17406; Case No. 18-2404.
Petitioner's Petition for Writ of Certiorari is timely as it has been filed within 90 days of the
June 2, 2020 Opinion/Order of the Sixth Circuit Court of Appeals denying a rehearing.

6

ARGUMENT
THERE IS A CONFLICT AMONG THE CIRCUITS AS TO THE PROPER
STANDARD OF REVIEW WHEN DETERMINING FEDERAL RULES OF
CIVIL PROCEDURE RULE 15(C)'S RELATE BACK PROVISION;
PETITIONER S INEFFECTIVE ASSISTANCE OF COUNSEL CLAIM
RELATES BACK TO HIS ORIGINAL TIMELY FILED PETITION AND
THE SIXTH CIRCUIT COURT OF APPEALS FAILED TO CONDUCT A
PROPER REVIEW OF THE RECORD TO DETERMINE WHETHER
THE CLAIM SHARES A COMMON CORE OF OPERATIVE FACTS
PRIOR TO DISMISSING THE CLAIM AS UNTIMELY.
Standard of Review
Supreme Court Rule 10 governs review of claims in a petition for writ of certiorari. Rule
10 states in relevant part:
(a) a United States court of appeals has entered a decision in conflict
with the decision of another United States court of appeals on the same
important matter; has decided an important federal question in a way that
conflicts with a decision by a state court of last resort; or has so far
departed from the accepted and usual course of judicial proceedings, or
sanctioned such a departure by a lower court, as to call for an exercise of
this Court's supervisory power.
* * *

(c) a state court or a United States court of appeals has decided an
important question of federal law that has not been, but should be, settled
by this Court, or has decided an important federal question in a way that
conflicts with relevant decisions of this Court.

In this case, Petitioner asserts that there is a conflict among the circuits as to the proper
standard of review to follow when addressing Federal Rules of Civil Procedure Rule 15(C)'s
relate back provision. As a result, Petitioner was denied a full and fair review of the merits of
the claim presented in his amended petition for writ of habeas corpus, a claim which if
substantiated supports granting habeas relief to prevent a miscarriage of justice.

7

•s'

.•M

Facts
Petitioner asserts that the claim raised in his Amended Petition for Writ of Habeas Corpus
does share a common core of operative facts with his original timely filed petition, making his
amended claim timely and leaving no doubt that the Sixth Circuit Court of Appeals made a
mistake when it affirmed the District Court's Opinion/Order denying habeas relief.

Other

Circuits make a de novo inquiry into the claim and the facts asserted to determine whether or not
the claim(s) share a common core of operative facts before summarily dismissing an amended
claim as untimely. The Sixth Circuit failed to conduct that analysis in this case. As a result,
there is a conflict among circuits which this Honorable Court should provide guidance.
Conflict Among Circuits
Petitioner asserts that the Sixth Circuit Court of Appeals failed to conduct a de novo
review of his claim to determine whether the claim rose in his amended petition relates back to
the claim(s) raised in his original petition, and as a result, the Court of Appeals has failed to
properly address his claim on the merits. The failure to conduct the appropriate review casts
doubt on the fairness, integrity and public reputation of the judicial proceedings.
Several appellate courts apply a de novo standard of review to claims addressing Fed. R.
Civ. Proc. 15(c), relate back requirement. See, United States v Marulanda, 226 Fed. Appx. 706
(9th Cir. 2007)(An appellate court reviews a district court's denial of a defendant's habeas
petition de novo, including whether a claim raised in an amended petition relates back to an
original, timely filed petition under Fed. R. Civ. Proc. 15(c)); United States v Roe, 913 F. 3d
1285, 1298 (10th Cir. 2019)(The relation back question implicates the timeliness of a proposed
amendment to a 28 USCS § 2255 motion, review is de novo); Hodge v United States, 554 F. 3d
372 (3rd Cir. 2009)(An appellate court reviews a trial court's interpretation of the relation back

8

doctrine de novo); . Several other circuits apply an abuse of discretion standard to claims
addressing Fed. R. Civ. Proc. 15(c), relate back requirement. See, Davenport v United States,
217 F. 3d 1341, 1343 n. 4 (11th Cir. 2000)(Application of Rule 15(c) is reviewed for abuse of
discretion); Dodd v United States, 614 F. 3d 512 (8th Cir. 2010)(Appellate courts review a
district court's application of Fed. R. Civ. Proc. 15(c) for an abuse of discretion); Hill v Mitchell,
842 F. 3d 910 (6th Cir. 2016)(The appellate court reviews the denial of a motion to amend for
abuse of discretion; However, when the district court's decision is based on a legal conclusion
that the proposed amendment would be futile, review is de novo. See, Parry v Mohawk Motors
of Michigan, Inc. 236 F. 3d 299, 305 (6th Cir. 2001).
In this case, the U.S. District Court's legal conclusion that the amendment was untimely
deserved a de novo review by the Sixth Circuit Court of Appeals.
Petitioner cites, Sumpter v Bowersox, 2017 U.S. Dist. Lexis 203099, where the court
conducted a de novo review of a State habeas petitioner's claim(s) to determine whether or not
the claims presented were tied to a common core of operative facts, where the petition failed to
explain what the core of operative facts is and why it was common to his claims, Id. at *4-8, for
the position that the Sixth Circuit Court of Appeals should have conducted the same inquiry
before dismissing the amended claim as untimely.

Especially where Petitioner made a

substantial showing that the claim was based upon the same core of operative facts.
Because the Circuits are divided on the appropriate standard of review for a claim under
the relation-back doctrine, this Honorable Court should intervene and provide guidance on the
appropriate procedure to follow when addressing such claims.
A full review of Petitioner's amended claim will reveal that Petitioner's substantial rights
were violated and that a different result is quite probable absent the error(s).

9

Policy on Amendments to a Petition for Writ of Habeas Corpus
Petitioner asserts that his amended petition for writ of habeas corpus was allowed by the
Federal Rules of Civil Procedure and Habeas Corpus Rule 12.
A discrete set of rules govern federal habeas proceedings launched by state prisoners. The
last of those rules, Habeas Corpus Rule 12, permits application of the Federal Rules of Civil
Procedure in habeas cases, "to the extent that [the civil rules] are not inconsistent with any
statutory provisions or [the habeas] rules." See also, Fed. R. Civ. Proc. 81(a)(4) (the civil rules
are applicable to procedures for . . . habeas corpus).

Habeas Corpus Rule 12, Advisory

Committee Note's caution, "permits application of the civil rule only when it would be
appropriate to do so," and would not be "inconsistent or inequitable in the overall framework of
habeas corpus." In addition to the general prescription on application of the civil rules in federal
habeas case, 28 U.S.C. § 2242, specifically provides that habeas applications "may be amended
as provided in the rules of procedure applicable to civil action." (emphasis added).
The civil rule governing pleading amendments, Federal Rules of Civ. Proc. R. 15, made
applicable to habeas proceedings by § 2242; Federal Rules of Civ. Proc. R. 81 (a)(4); and Habeas
Corpus Rule 12, allow pleading amendments with "leave of the court" any time during the
proceeding. See, Federal Rules of Civ. Proc. R. 15(a)(2). Before a responsive pleading is
served, pleadings may be amended once as a "matter of course," i.e., without seeking leave of
the court. Amendments made after the statute of limitations has run relate back to the original
pleading if the original and amended pleadings "arose out of the conduct, transaction, or
occurrence set - out or attempted to be set out - in the original pleading". Fed. Rules Civ. Proc. R
15(c)(1)(b); Moyle v Felix, 545 U.S. at 654-655.

10

The original "pleading" to which Rule 15 refers is the complaint in a civil case, and the
petition in a habeas proceeding. Under Fed. R. Civ. Proc. 8(a), applicable to ordinary civil
proceedings, a complaint need only provide "fair notice of what the plaintiffs claim is and the
grounds upon which it rests." Conley v Gibson, 355 U.S. 41, 47; 78 S. Ct. 99; 2 L. Ed. 2d 80
(1957). Habeas Corpus Rule 2(c) is more demanding. It provides that the petition must "specify
all the grounds for relief available to the petitioner" and "state the facts supporting each ground."
See, Advisory Committee's Note, Subdivision C of Habeas Corpus Rule 2 ("In the past, petitions
have frequently contained mere conclusions of law, unsupported by any facts. [But] it is the
relationship of the facts to the claim asserted that is important. . ."); see also, Advisory
Committee's Note on Habeas Corpus Rule 4 ("[N]otice" pleading is not sufficient, for the
petition is expected to state facts that point to a "real possibility of constitutional error.").

The

prime purpose of Habeas Corpus Rule 2(c)'s demand that habeas petitioners plead with
particularity is to assist the district court in determining whether the State should be ordered to
"show cause why the writ should not be granted." 28 U.S.C. § 2243. Under Habeas Corpus
Rule 4, if "it plainly appears from the petition . . . that the petitioner is not entitled to relief in the
district court," the court must summarily dismiss the petition without ordering a responsive
pleading.
In this case, the district court granted leave to amend the petition and DID NOT summarily
dismiss under Habeas Corpus Rule 4, indicating that the court was satisfied that the grounds
raised in the Amended Petition sufficiently relate back to the Original Petition because the
common core of operative facts in the amended petition "arose out of the same conduct.
transaction or occurrence," as those in the original petition. Had the district court thought

11

otherwise, it could have summarily dismissed the amended pleadings without ordering a
responsive pleading. See, Habeas Corpus Rule 4; and Exhibit A - May 19, 2017 Opinion/Order
This case turns on the meaning of Federal Rules of Civil Procedure R. 15(c)(l)(B)'s
relation-back provision in the context of federal habeas proceedings and the AEDPA's one-year
statute of limitations. Fed. R. Civ. Proc. 15(c)(1)(B), as earlier stated, provides that pleading
amendments relate back to the date of the original pleading when the claim asserted in the
amended pleading "arose out of the conduct, transaction, or occurrence set forth or attempted to
be set forth in the original pleading." Mayle, 454 U.S. at 656.
In this case, there is no question that the ineffective assistance of counsel claim raise in
the amended petition relates back to the claim(s) raised in the original habeas petition. A plenary
review of the claim should have been sufficient to establish this fact. Of significance, this is the
amended claim is the only claim for which a certificate of appealability was issued.
Petitioner's Amended Claim Relates Back
Under Mayle v Felix, 545 U.S. 644; 125 S. Ct. 2562; 162 L. Ed. 2d 582 (2005), habeas
claims in an amended petition do not arise out of "the same conduct, transaction or occurrence"
as claims in the original petition merely because the claims all challenge the same trial,
conviction or sentence. Mayle, 545 U.S. at 655-664. Rather, under the construction of the rule
approved in Mayle, Federal Rule of Civil Procedure 15(c)(1)(B) permits relation back of habeas
claims asserted in an amended petition "only when the claims added by amendment arise from
the same core facts as the timely filed claims, and not when the new claims depend upon events
separate in 'both time and type' from the originally raised episodes." Mayle, 545 U.S. at 657.
In Petitioner's original petition, he raised an "insufficient evidence claim." Petitioner
asserted that there was not sufficient credible evidence submitted at trial to justify a finding of

12

guilt beyond a reasonable doubt. See, Original Petition, pgs. 8-9. The core facts of that claim
involved: (1) the problems with the eyewitness identification, after a long period of time between
the incident and later identification; (2) problems on how the identification was not obtained
until after 6 years; and, (3) the conduct by the police at the lineup, each of which show why the
identification was tainted and should have been challenged. See, Original Petition, pgs. 11-14 &
23. Petitioner also raised a claim about the denial of funds to hire and expert witness
(identification expert). See, Original Petition, pgs. 23. The facts asserted in this claim are: (1)
the known problems with eyewitness testimony, given the fact that the eyewitness was unable to
identify Petitioner the night of the crime, but was able to identify Petitioner six (6) years after the
crime allegedly because of nightmares; and, (2) the "dangers of positive identification
testimony," see, Original Petition, pg. 24
In Petitioner's Amended Petition, he asserted that trial counsel was ineffective for failing
to file a motion to suppress the eyewitness' suggestive in-court identification. The facts of the
claim are based upon: (1) the conduct of police at the line-up, see, Original Petition, pg. 14; (2)
how the identification was obtained see, Original Petition, pg. 8; and, (3) the lapse of time
between the crime and confrontation see, Original Petition, pgs. 8 & 23.

It is clear that the

claim asserted in Petitioner's Amended Petition arose out of the same conduct, transaction and
occurrence set forth in the Original Petition, and clearly shows that the core set of facts relate
back those presented in the Original Petition.
The Sixth Circuit Court of Appeals erroneously thought the claim presented in the
amended petition were based on facts which differed in both time and type from facts set forth in
the original petition. Federal Rules of Civil Procedure Rule 15(c)(1)(B), merely requires that the

13

amendment assert a claim or defense that arose out of the conduct, transaction, or occurrence set
out - or attempted to be set out - in the original petition.
The single occurrence in this case, was how the Petitioner was identified; the suggestive
identification procedure used; the lapse of time between the crime and the in-court identification,
based upon the eyewitness' inability to identify a suspect on the night of the incident, all of
which, Petitioner attempted to set forth in his original petition.
Under Fed. R. Civ. Proc. 15(c)(1)(B), an amendment is permitted to relate back to the
date of the original pleading if the original and amended pleading "arose out of the same
conduct, transaction or occurrence."

Accordingly, while amendments that expand upon or

clarify facts previously alleged will typically relate back, those that significantly alter the nature
of a proceeding by injecting new and unanticipated claims are treated far more cautiously.
United States v Hicks, 283 F. 3d 380, 388 (2002). So long as the original and amended petition
state claims that are tied to a common core of operative facts, relation back will be ordered.
Mayle v Felix, 545 U.S. 644, 664-665; 125 S. Ct. 2562; 162 L. Ed. 2d 582 (2005).
The Amended Petition clarifies the claims in the Original Petition because it highlights
the constitutional violation/error that occurred which the jury, nor the Courts were aware of. The
Amended Petition amplifies the claims in the Original Petition because it alerts the Court to the
level of seriousness of the violation which occurred in this case at the line-up. It also sheds some
light on the importance of the lapse of time between the crime and the confrontation; how the
v

identification was obtained; and the importance of "positive identification testimony." All of
these arguments occurred from the same core facts and were discussed within the text of the
original habeas petition and therefore relate back to the Original Petition. See, Mayle v Felix,
545 U.S. 644; 125 S. Ct. 2562; 162 L. Ed. 2d 582 (2005).

14

In Tiller v Atlantic Coast Line R. Co., 323 U.S. 574, 580-581; 65 S. Ct. 421; 89 L. Ed.
465 (1945), this Court discussed Rule 15(c)'s relation-back provision as it relates to "conduct,
transaction, or occurrence." In Tiller, a railroad worker was struck and killed by a railroad car.
His widow sued under the Federal Employers' Liability Act to recover for his wrongful death.
She initially alleged various negligent acts. In an amended complaint, she added a claim under
the Federal Boiler Inspection Act for failure to provide the train's locomotive with a rear light.
The U.S. Supreme Court held that the amendment related back, and therefore avoided the statute
of limitations bar, even though the amendment invoked a legal theory not suggested by the
original complaint and relied on facts not originally asserted.
There was but one episode in Tiller, a worker's death attributed from the start to the
railroad's failure to provide its employee with a reasonably safe place to work. The widow in
Tiller based her complaint on a single "occurrence," an accident resulting in her husband's death.
In this case, Petitioner has based his original and amended claims on a single
"occurrence," an improper and/or suggestive identification procedure, which deprived him of his
right to due process and the effective assistance of counsel.
This case is very similar to that of Cowan v Stovall, 645 F. 3d 815 (2011). In Cowan, the
Petitioner filed her initial petition within the one-year limitations period, however, Cowan's
petition did not include a specific ineffective assistance of counsel claim based on her lawyer's
failure to interview people. After the one-year limitations period had passed, Cowan moved to
file an amended petition that included the ineffective assistance of counsel claim. The district
court thought that the claim was based on facts that "differ[ed] in both time and type" from the
facts set forth in the original petition. Thus the claim would not relate back to the date of the
original petition, which in turn meant the claim would be untimely. The district court therefore

15

denied leave to file the claim. Thus, the linchpin of the district court's refusal to consider
Cowan's claim was that it did not share a common core of operative facts with the original
petition.
The Sixth Circuit Court of Appeals acknowledged, "Cowan expressly asserted in both
documents, therefore, that Perlman [attorney] should have interviewed witnesses who could have
testified to her whereabouts on the date of the controlled buy." The motion to amend merely
added more detail with respect to who the witnesses were and what they would say. The facts
recited in the two documents differed not in kind, but in specificity. Even if one assumed that
the original petition did not state a failure-to-interview claim - and the court had doubts about
that assumption - her failure-to-interview claim as set forth in her motion to amend shared a
common core of operative facts with her original petition, it related back, and it was timely.
Ultimately, the Sixth Circuit reversed the district court's finding that the failure-to-interview
claim was untimely and remanded for further proceedings consistent with the court's opinion.
Petitioner contends that his ineffective assistance of counsel claim for failing to file a
motion to suppress eyewitness identification does relate back to the claim(s) raised in the original
petition. The motion to amend merely added, in more detail, the facts of the claim. The facts
recited in the two documents differed, not in kind, but in specificity. Cowan v Stovall, 645 F. 3d
at 819.
Conclusion
Petitioner's amended habeas claim should be considered timely under an excusable
neglect exception. Petitioner clearly intended to raise the issue on habeas review where he raised
the claim in his post-conviction motion for relief from judgment, prior to filing his habeas
petition. There is no legitimate reason to raise a federal constitutional violation on collateral

16

review merely to abandon the claim on federal review. The original petition indicates that the
habeas petition was prepared by a Michigan Department of Corrections Prison Legal-Writer,
who failed to present the claim in the original habeas petition. Once the state appellate remedies
were exhausted, the legal-writer had an obligation to his client to properly present the claim on
habeas review.
Petitioner discovered that the ineffective assistance of counsel claim was not properly
presented in his original petition and immediately sought to amend his habeas petition. Based
upon the acceptance of the amended petition, and the subsequent order requiring the State to
respond, Petitioner believed that his amended claim was properly before the court.

Petitioner

believed that once his amended claim survived plenary review and the State was ordered to
respond that no further action was necessary to obtain an opinion on the merits of the claim.
While the State did argue the timeliness of the amended claim, the federal district court did not
address the issue, instead ruling on the merits of the claim. Petitioner's efforts to present the
claim in the federal district court clearly show diligence in presenting the issue for habeas
review.
After the Sixth Circuit Court of Appeals granted a Certificate of Appealability on
Petitioner's amended claim, indicating that the district court failed to recognize that Petitioner
was raising a claim related to the in-court-identification, rather than the pre-trial identification.
Petitioner filed a rule 60(b), motion on June 19, 2019, in the federal district court alleging
mistake or inadvertence as it relates to the ineffective assistance of counsel claim. The district
court did not make a ruling on the motion and denied it without further consideration because the
Sixth Circuit Court of Appeals denied relief on the claim.

17

Because the claim does share a common core of operative facts with the claims raised in
his original timely filed petition, a remand is required with directions to conduct a de novo
review on Petitioner's amended ineffective assistance of counsel claim, addressing the merits of
the claim presented.
Petitioner's claim sets out a valid claim of mistaken identity, based upon an
impermissibly suggestive identification procedure. To allow such an egregious error of law to
go uncorrected based upon a procedural bar definitely affects the fairness, integrity or public
reputation of the judicial proceedings. It would be a manifest injustice to refuse to review
Petitioner's claim where there is a substantial likelihood that he was mistakenly identified as the
suspect, subsequently convicted, and then ordered to spend the rest of his life in prison.

18

RELIEF REQUESTED
Petitioner asks this Honorable Court to hold that the claims presented in his Amended
Petition for Writ of Habeas Corpus relate back to the claims presented in his Original Petition for
Writ of Habeas Corpus; REMAND the Matter to the Sixth Circuit Court of Appeals with
instructions to adjudicate the merits of his amended claim on its proper grounds; and, GRANT
Petitioner the proper relief it deems fair and just.
Respectfully Submitted,

August 2T1 .2020
Marcus Hanserd #440115
Bellamy Creek Correctional Facility
1727 West Bluewater Highway
Ionia, Michigan 48846

VERIFICATION
I declare under the penalty of perjury that the information contained within the foregoing
Petition for Writ of Certiorari is true to the best of my knowledge, information and belief.

August

VVcH/lS"

2020

Marcus Hanserd #440115
Bellamy Creek Correctional Facility
1727 West Bluewater Highway
Ionia, Michigan 48846

19

